ES, IG-99-031, NASA's Non-Tax Delinquent Debt
NASA'S NON-TAX DELINQUENT DEBT
IG-99-031
Executive Summary
Background
The Debt Collection Improvement Act (DCIA) of 1996 requires Federal agencies
to aggressively pursue the collection of debt once it becomes delinquent
(past due more than 30 days).  The Act also requires agencies to transfer
non-tax debt more than 180 days delinquent to the Department of the Treasury
for collection.  NASA reported $29.7 million and $17.8 million in
receivables due from the public at the end of fiscal years (FY's) 1997 and
1998, respectively.(1)  Of those amounts, about $3 million was delinquent more
than 30 days at the end of both fiscal years.(2)  The majority of those
receivables represent vendor payments, amounts due from employees, and
other administrative accounts.
Objectives
The overall audit objective was to assess the collectibility of the
delinquent debt and to determine whether the reported amount accurately
represents the universe of such debt.
This audit is part of a President's Council on Integrity and Efficiency
Government-wide review of non-tax delinquent debt.
We performed audit fieldwork at four NASA installations: Goddard Space
Flight Center (Goddard), NASA Headquarters, Johnson Space Center (Johnson),
and Kennedy Space Center (Kennedy).  These four locations comprised 81
percent of NASA's accounts receivable due from the public for FY's 1997
and 1998.  Additional details on the objectives, scope, and methodology
are in Appendix A.
Results of Audit
NASA has made significant progress towards meeting the requirements of the
DCIA and makes efforts to collect its receivables.  For example, NASA has
included the DCIA requirements in the Agency's Financial Management Manual
(FMM) and has transferred delinquent bills to the Treasury for collection.
In addition, the installations we reviewed were processing and tracking
bills to debtors, and the receivables balances reported by the Agency as
of September 30, 1997, and 1998, were generally reliable.
However, we identified opportunities for NASA to enhance its collection
of receivables:
Improve the timeliness of the collection of receivables by
strengthening NASA installation compliance with FMM requirements to
transfer to the Treasury debts that are more than 180 days delinquent
and to consistently bill debtors prior to the transfer.  The Agency
has neither aggressively pursued nor collected all debts due the
Government (Finding A).
Increase efficiencies in Agency collections management by
establishing procedures to ensure that Agency accounting offices
are notified of all receivables.  The Agency cannot ensure consistency
in the collection of receivables without those procedures (Finding B).
More effectively protect the Government's interest by following up
on debts owed to the Agency by employees who have not completed
NASA-funded academic courses.  The Agency may not have been reimbursed
for courses that were not completed successfully (Finding C).
Improve the delinquent debt ratio by accurately reporting
delinquent debts to the Treasury.  NASA has reported a higher amount
of delinquent debts to the Treasury than actually existed (Finding D).
The improvements would increase NASA's assurance that receivables are
established, recorded, and collected and that penalties and administrative
fees are regularly assessed.
We also identified minor instances in which installations incorrectly
posted receivables in the accounting records and did not promptly correct
them (see Appendix B).
Recommendations
We recommend that management strengthen internal controls to ensure
compliance with NASA FMM requirements for timely debt collection and
measure this compliance through the establishment of performance metrics
related to the debt collection process.  Management should also establish
procedures to ensure that all amounts due the Agency are processed by the
cognizant accounts receivable office and that reimbursement is made to the
Government if NASA-funded courses are not successfully completed.
Management's Response
Management either agreed or concurred in principle with each recommendation.
The complete text of the response is in Appendix D.  We consider
management's comments responsive.
FOOTNOTES
1.  Many of these receivables
are with reimbursable customers who provided NASA with an advance that
could liquidate the receivable.  According to the Chief of the NASA
Accounting, Reporting and Analysis Branch, in FY 1998, the Agency requested
the installations to bill and collect on reimbursable receivables through
liquidation of the related advances in a more timely manner.  This action
provided a more accurate reflection of NASA's financial condition.  The
result was an $11.9 million (40 percent) reduction from FY 1997 to FY 1998
of total receivables reported to Treasury.
2.  Of the delinquencies, 192
receivables totaling $1.5 million were also more than 180 days delinquent
as of September 30, 1997, and 183 receivables totaling $2.1 million were
also more than 180 days delinquent as of September 30, 1998.